                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION



Office of Inspector General—Office of Audit




                                              SPECIAL REPORT RELATING TO THE
                                              FEDERAL EMPLOYEES’ COMPENSATION ACT
                                              SPECIAL BENEFIT FUND
                                              September 30, 2008




                                               This report was prepared by KPMG LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.


                                                                                 __________________________
                                                                                 U.S. Department of Labor
                                                                                 Assistant Inspector General for Audit




                                                                           Date Issued: October 27, 2008
                                                                        Report Number: 22-09-001-04-431
                                                                          Special Report Relating to the
                                                Federal Employees’ Compensation Act Special Benefit Fund

Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… .......................... 3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense........................ 5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ......................................................................... 11

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense........................................................ 13

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures............................................................................................................. 17

      B.   Schedules

             Schedule of Actuarial Liability by Agency......................................................... 19

             Schedule of Net Intra-Governmental Accounts Receivable by Agency.......... 21

             Schedule of Benefit Expense by Agency........................................................... 23

      C.   Agreed-Upon Procedures and Results

             Actuarial Liability ................................................................................................. 25

             Net Intra-Governmental Accounts Receivable .................................................. 31

             Benefit Expense ................................................................................................... 37

Appendix
             Acronyms and Abbreviations ............................................................................. 43




Prepared by KPMG LLP, for the                                                                                                       1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210


October 27, 2008

                Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR:             FEDERAL AGENCIES WITH RESPONSIBILITIES
                            FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                            ACT PROGRAM



FROM:                       ELLIOT P. LEWIS
                            Assistant Inspector General for Audit

SUBJECT:                    Special Report Relating to the Federal Employees’
                            Compensation Act Special Benefit Fund – FY 2008
                            Report No. 22-09-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (the Fund) that was prepared to assist in the audit of your
agency’s annual financial statements. The U.S. Department of Labor, Employment
Standards Administration, Office of Workers’ Compensation Programs (OWCP)
administers the Fund, and the DOL Office of Inspector General is responsible for
auditing the Fund.

The Office of Inspector General contracted with the independent certified public
accounting firm of KPMG LLP (KPMG) to prepare the report on the Fund as of and for
the year ended September 30, 2008. This special report consists of two reports. The
first report is an opinion on the Schedule of Actuarial Liability, Net Intra-Governmental
Accounts Receivable, and Benefit Expense of the Fund (the Schedule) as of and for the
year ended September 30, 2008. KPMG issued an unqualified opinion on this
Schedule. In connection with this audit, KPMG considered DOL’s internal control over
financial reporting and tested DOL’s compliance with laws and regulations related to the
Fund. Their consideration of internal control over financial reporting disclosed a
significant deficiency titled Controls Over the Financial Reporting Process Need
Improvement. This significant deficiency is not considered to be a material weakness.
Their testing of compliance with laws and regulations disclosed no instances of
noncompliance or other matters that are required to be reported under Government
Auditing Standards.




Prepared by KPMG LLP, for the                                                             3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The second report is an agreed-upon procedures (AUP) report on the schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of and for the year ended September 30, 2008. This report
includes a description of the procedures performed and the results of those procedures.
The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the OIG nor KPMG makes
any representations regarding the sufficiency of the procedures. Because the AUP
performed did not constitute an examination, KPMG did not express an opinion on any
elements, accounts, or items as they pertained to the AUP report. Further, neither the
OIG nor KPMG has any obligation to perform any procedures beyond those listed in the
attached AUP report.

KPMG is responsible for the attached reports dated October 27, 2008, and the
conclusions expressed in the reports. We reviewed KPMG’s reports and related
documentation and inquired of their representatives. Our review, as differentiated from
an audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express opinions on: the Actuarial Liability, Net
Intra-Governmental Accounts Receivable, and Benefit Expense of the Fund as of and
for the year ended September 30, 2008; or the AUP report on the schedules of Actuarial
Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense by agency
as of and for the year ended September 30, 2008. Our review disclosed no instances
where KPMG did not comply, in all material respects, with Government Auditing
Standards.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:


              Joseph L. Donovan, Jr.
              Audit Director, Financial Statement Audits
              U.S. Department of Labor
              Office of Inspector General
              200 Constitution Ave., N.W., Room S-5512
              Washington, D.C. 20210

              Fax: (202) 693-5169
              e-mail: Donovan.Joseph@oig.dol.gov




4                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                                     Special Report Relating to the
                                           Federal Employees’ Compensation Act Special Benefit Fund



                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036




                                                   SECTION 1A
                       Independent Auditors’ Report on the
               Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable, and Benefit Expense

  Victoria A. Lipnic, Assistant Secretary
  Employment Standards Administration, U.S. Department of Labor,
  Government Accountability Office, Office of Management and Budget,
  and Agencies Specified in Section 2B of this Report:

We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2008, and Benefit Expense for
the year ended September 30, 2008, of the U.S. Department of Labor’s (DOL) Federal
Employees’ Compensation Act Special Benefit Fund (the Schedule). The objective of
our audit was to express an opinion on the fair presentation of DOL’s Schedule. In
connection with our audit, we also considered DOL’s internal control over financial
reporting related to the Schedule and tested DOL’s compliance with certain provisions
of applicable laws and regulations that could have a direct and material effect on the
Schedule.

SUMMARY
As stated in our opinion on the Schedule, we concluded that DOL’s Schedule as of and
for the year ended September 30, 2008, is presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in the identification
of a significant deficiency related to weaknesses in control over financial reporting.
However, we do not consider this significant deficiency to be a material weakness.

The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.

The following sections discuss our opinion on DOL’s Schedule, our consideration of
DOL’s internal control over financial reporting, our tests of DOL’s compliance with
certain provisions of applicable laws and regulations, and management’s and our
responsibilities.

Prepared by KPMG LLP, for the                                                                    5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




OPINION ON THE SCHEDULE
We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2008, and Benefit Expense for
the year ended September 30, 2008, of the U.S. Department of Labor’s Federal
Employees’ Compensation Act Special Benefit Fund.

In our opinion, the Schedule referred to above presents fairly, in all material respects,
the actuarial liability and net intra-governmental accounts receivable as of September
30, 2008, and benefit expense for the year ended September 30, 2008, in conformity
with U.S. generally accepted accounting principles.

INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of the internal control over financial reporting was for the limited
purpose described in the Responsibilities section of this report and would not
necessarily identify all deficiencies in the internal control over financial reporting that
might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
to prevent or detect misstatements on a timely basis. A significant deficiency is a
control deficiency, or combination of control deficiencies, that adversely affects DOL’s
ability to initiate, authorize, record, process, or report financial data reliably in
accordance with U.S. generally accepted accounting principles such that there is more
than a remote likelihood that a misstatement of the Schedule that is more than
inconsequential will not be prevented or detected by DOL’s internal control over
financial reporting. A material weakness is a significant deficiency, or combination of
significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the Schedule will not be prevented or detected by DOL’s internal
control.

In our audit, we consider the deficiency described in Exhibit I to be a significant
deficiency in internal control over financial reporting. However, we do not consider this
significant deficiency described in Exhibit I to be a material weakness.

COMPLIANCE AND OTHER MATTERS
The results of our tests of compliance described in the Responsibilities section of this
report disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.



6                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




RESPONSIBILITIES
Management’s Responsibilities. Management is responsible for preparing the
Schedule in conformity with U.S. generally accepted accounting principles; establishing
and maintaining effective internal control; and complying with laws and regulations
applicable to the Schedule.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the
Schedule based on our audit. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards
applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the Schedule is free of
material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of
DOL’s internal control over financial reporting. Accordingly, we express no such
opinion.
An audit also includes:
•    Examining, on a test basis, evidence supporting the amounts and disclosures in
     the Schedule;
•    Assessing the accounting principles used and significant estimates made by
     management; and
•    Evaluating the overall Schedule presentation.

We believe that our audit provides a reasonable basis for our opinion.
In planning and performing our audit, we considered DOL’s internal control over
financial reporting by obtaining an understanding of DOL’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Schedule. The objective of our audit was not
to express an opinion on the effectiveness of DOL’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of DOL’s
internal control over financial reporting.




Prepared by KPMG LLP, for the                                                             7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of DOL’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of the Schedule amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws and regulations applicable to the DOL Schedule. However,
providing an opinion on compliance with laws and regulations was not an objective of
our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
the U.S. Congress, and those Federal agencies with responsibility for the FECA
program and is not intended to be and should not be used by anyone other than these
specified parties.




October 27, 2008




8                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                                                                      Exhibit I
Controls Over the Financial Reporting Process Need Improvement

During our FY 2008 audit, we noted deficiencies in the internal control over financial
reporting related to the preparation of the FECA Schedule of Actuarial Liability, Net
Intra-Governmental Accounts Receivable, and Benefit Expense that resulted in a
number of errors in the draft Schedules including the following:

•   Net intra-governmental accounts receivable as of September 30, 2008, was
    understated by $76 million. This amount is related to accrued benefits for benefit
    payments made as of September 30, 2008, but not yet billed to customer agencies
    that was reported in the general ledger but inadvertently excluded from the
    Schedule.

•   Benefit expense for the year ended September 30, 2008, was overstated by $46
    million. The first part of this difference represents an $11 million change in accrued
    benefit expense from September 30, 2007, to September 30, 2008, that was
    reported in the general ledger but was inappropriately excluded from the benefit
    expense amount reported on the Schedule. The second part is related to fair share
    payments of $57 million for FY 2008 that were included in benefit expense reported
    in the draft Schedule but should have been excluded since it relates to administrative
    expenses and not benefit expense.

The above errors were subsequently corrected by management in the final Schedule.

Per GAO’s Standards of Internal Control in the Federal Government, “Internal control
should generally be designed to assure that ongoing monitoring occurs in the course of
normal operations. It is performed continually and is ingrained in the agency’s
operations. It includes regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that
“The agency head must establish controls that reasonably ensure that obligations and
costs are in compliance with applicable laws; funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues
and expenditures applicable to agency operations are properly recorded and accounted
for to permit the preparation of accounts and reliable financial and statistical reports . . .”

These errors noted above were caused by lack of specific guidance in the form of
written policies and procedures that would guide DOL supervisors on the proper review
of the Schedule.




Prepared by KPMG LLP, for the                                                                9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

We recommend that management establish written policies and procedures that would
provide its supervisors with detailed guidance on the proper review of the Schedule and
mitigate the risk of misstatements. Furthermore, the policies and procedures should
include comparing the balances reported in the Schedule to the DOL general ledger and
information posted on the DOL website.

Management’s Response:
Management concurs. Current written procedures will be updated to include, among
other things, specific guidance for staff and supervisors on the preparation and review
of quarterly and year-end FECA schedules. The guidance will also include a
requirement for comparison of the balances reported on the schedules to the DOL
general ledger and information reported on DOL’s website. We anticipate completion
by December 31, 2008.

Auditors’ Conclusion:
This recommendation is considered resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.




10                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 1B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
           Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2008, and Benefit Expense
                    For the Year Ended September 30, 2008

                                  (dollars in thousands)

       Actuarial Liability                                              $ 27,589,634


       Net Intra-Governmental Accounts Receivable                       $   3,775,615


       Benefit Expense                                                  $   3,925,988




                              See accompanying notes to schedule.


Prepared by KPMG LLP, for the                                                            11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2008, and Benefit Expense
                     For the Year Ended September 30, 2008

1.     Significant Accounting Policies

       a.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2008, and Benefit Expense for the year ended
       September 30, 2008, of the U.S. Department of Labor’s Federal Employees’
       Compensation Act Special Benefit Fund (the Schedule) has been prepared to
       report the actuarial liability, net intra-governmental accounts receivable, and
       benefit expense of the U.S. Department of Labor’s (DOL) Federal Employees'
       Compensation Act (FECA) Special Benefit Fund (the Special Benefit Fund). The
       Special Benefit Fund was established by the Federal Employees' Compensation
       Act to provide for the financial needs resulting from compensation and medical
       benefits authorized under the Act.           The DOL, Employment Standards
       Administration (ESA) is charged with the responsibility of operating the Special
       Benefit Fund under the provisions of the Act. The schedule has been prepared
       from the accounting records of the Special Benefit Fund.

       The actuarial liability, net intra-governmental accounts receivable, and benefit
       expense of the Special Benefit Fund are considered specified accounts for the
       purpose of this Schedule. ESA is responsible for providing this information to the
       CFO Act agencies and other specified agencies to support and prepare their
       respective financial statements.

       The actuarial liability of $27,589,634 thousand is an accrued estimate of future
       workers' compensation benefits as of September 30, 2008. Historical benefits
       paid, inflation and interest rate assumptions, and other economic factors are
       applied to the actuarial model that calculates the liability estimate. The net intra-
       governmental accounts receivable is the amount due from Federal agencies for
       benefit payments paid to or on behalf of employees of the employing agency as
       of September 30, 2008. The net intra-governmental accounts receivable includes
       amounts which were billed to the employing agencies through June 30, 2008, but
       not paid as of September 30, 2008, including prior years, if applicable, plus the
       accrued receivable for benefit payments not yet billed for the period of July 1,
       2008, through September 30, 2008, less credits due from the public. Benefit
       expense consists of benefits paid and accrued for the period from October 1,
       2007, to September 30, 2008, plus the net change in the actuarial liability for the
       fiscal year.
                                                                              (continued)
Prepared by KPMG LLP, for the                                                            13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                      SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2008, and Benefit Expense
                     For the Year Ended September 30, 2008

       Benefit payments are intended to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees
       whose death is attributable to job-related injury or occupational disease.

b.     Basis of Accounting

       The Schedule has been prepared on the accrual basis of accounting and in
       conformity with U.S. generally accepted accounting principles.

       An estimate of claims that have been incurred but not reported are included in
       the actuarial liability. Therefore, the actuarial liability represents the estimated
       present value of future compensation and medical payments based upon
       approved claims, plus a component for incurred but not reported claims.

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The Special Benefit Fund was established under the authority of the Federal
       Employees' Compensation Act to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees
       whose death is attributable to a job-related injury or occupational disease. The
       fund is reimbursed by other Federal agencies for the FECA benefit payments
       made on behalf of their workers.

       The actuarial liability for future workers’ compensation reported on the Schedule
       includes the expected liability for death, disability, medical and miscellaneous
       costs for approved cases as well as an estimate for those cases incurred but not
       reported. The liability is determined using a method that utilizes historical benefit
       payment patterns related to a specific incurred period to predict the ultimate
       payments related to that period. The actuarial model uses a Paid Loss
       Development Method by agency, by defined agency groups, and in total using
       inflation rate assumptions on both past and future indemnity and medical benefits
       to adjust past data and project forward.

                                                                              (continued)




14                                                             Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund



                                           SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2008, and Benefit Expense
                     For the Year Ended September 30, 2008

       Consistent with past practice and as allowed under U.S. generally accepted
       accounting principles, these projected annual benefit payments have been
       discounted to present value using the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting was 4.37% in year 1 and 4.77% in
       subsequent years.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA), and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                           FY            COLA          CPI-Med

                          2009          3.87%          4.00%
                          2010          2.73%          3.86%
                          2011          2.20%          3.87%
                          2012          2.23%          3.93%
                          2013          2.30%          3.93%
       The medical inflation rates presented represent an average of published
       quarterly rates covering the benefit payment fiscal year. The compensation
       factors presented are the blended rates used by the model rather than the
       published July 28, 2008, FECA-COLA factor from which the blended rates are
       derived.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable balance of $3,775,615 thousand
       represents the total of the amounts billed to Federal agencies through June 30,
       2008, that had not been paid as of September 30, 2008, of $2,975,888 thousand,
       including prior years’ amounts billed, if applicable; plus an accrued receivable

                                                                             (continued)


Prepared by KPMG LLP, for the                                                              15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                           SECTION 1C
     Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
      Accounts Receivable as of September 30, 2008, and Benefit Expense
                    For the Year Ended September 30, 2008

      for benefit payments not yet billed for the period July 1, 2008, through September
      30, 2008, of $825,243 thousand, less applicable credits due from the Public of
      $25,516 thousand.       The FECA Special Benefit Fund also receives an
      appropriation for special cases and older cases where employing agencies are
      not charged for benefit payments.

      Each Federal agency is required by the Federal Employees’ Compensation Act
      to include in their annual budget estimate a request for an appropriation in the
      amount equal to the agency cost. Agencies not receiving an appropriation are
      required to pay agency costs from funds directly under their control. In addition,
      certain corporations and instrumentalities are assessed under the Federal
      Employees' Compensation Act for a fair share of the costs of administering
      disability claims filed by their employees. The fair share costs are included in the
      calculation to determine the net intra-governmental accounts receivable.

4.    Benefit Expense
      Benefit expense for the year ended September 30, 2008, was comprised of the
      following (dollars in thousands):

               Benefits paid for compensation               $1,842,130
               Benefits paid for medical benefits              789,271
               Change in accrued benefits                       11,015
               Change in actuarial liability                 1,283,572

                   Total benefit expense                    $3,925,988




16                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                                                   Special Report Relating to the
                                                         Federal Employees’ Compensation Act Special Benefit Fund



                                          KPMG LLP
                                          2001 M Street, NW
                                          Washington, DC 20036




                                                                SECTION 2A
                                         Independent Accountants’ Report
                                       on Applying Agreed-Upon Procedures

Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:

We have performed the procedures described in Section 2C, Agreed-Upon Procedures
and Results, which were agreed to by the U.S. Department of Labor, U.S. Government
Accountability Office, Office of Management and Budget, and the Agencies Specified in
Section 2B of this Report, solely to assist you and such agencies with respect to the
accompanying Schedules of Actuarial Liability by Agency and Net Intra-Governmental
Accounts Receivable by Agency as of September 30, 2008, and Benefit Expense by
Agency for the year ended September 30, 2008, of the U.S. Department of Labor
Federal Employees’ Compensation Act Special Benefit Fund (the Schedules). The U.S.
Department of Labor is responsible for the Schedules (Section 2B).
This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and with Government Auditing Standards, issued by the Comptroller
General of the United States.
The sufficiency of these procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. Our agreed-upon procedures and results are
presented in Section 2C of this report.
We were not engaged to, and did not conduct an examination of the Schedules of
Actuarial liability by Agency, Net Intra-Governmental Accounts Receivable by Agency,
and Benefit Expense by Agency, the objective of which would be the expression of an
opinion on the Schedules or a part thereof. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to
our attention that would have been reported to you.




Prepared by KPMG LLP, for the                                                                                    17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431     KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                                       member firm of KPMG International, a Swiss cooperative.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
and those federal agencies with responsibility for the FECA program, and is not
intended to be and should not be used by anyone other than these specified parties.



October 27, 2008




18                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                               Special Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
                       Schedule of Actuarial Liability by Agency
                             As of September 30, 2008

                                       (dollars in thousands)

                                                                              Actuarial
 AGENCY                                                                       Liability
 Agency for International Development                                     $     23,137
 Environmental Protection Agency                                                44,615
 General Services Administration                                               163,826
 National Aeronautics and Space Administration                                  63,977
 National Science Foundation                                                      1,198
 Nuclear Regulatory Commission                                                    7,059
 Office of Personnel Management                                                 22,139
 U.S. Postal Service                                                          9,543,799
 Small Business Administration                                                  27,061
 Social Security Administration                                                297,932
 Tennessee Valley Authority                                                    532,499
 U. S. Department of Agriculture                                               832,013
 U. S. Department of the Air Force                                            1,395,449
 U. S. Department of the Army                                                 1,980,257
 U. S. Department of Commerce                                                  169,580
 U. S. Department of Defense – other                                           800,883
 U. S. Department of Education                                                  16,554
 U. S. Department of Energy                                                    104,734
 U. S. Department of Health and Human Services                                 282,517
 U. S. Department of Homeland Security                                        1,795,351
 U. S. Department of Housing and Urban Development                              84,529
                                                                                  (continued)

Prepared by KPMG LLP, for the                                                             19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                  U.S. Department of Labor
                            Employment Standards Administration
                  Federal Employees’ Compensation Act Special Benefit Fund
                                  Schedule of Actuarial Liability by Agency
                                        As of September 30, 2008

                                                      (dollars in thousands)


                                                                                                           Actuarial
 AGENCY                                                                                                    Liability
 U. S. Department of the Interior                                                                         $    692,389
 U. S. Department of Justice                                                                                  1,136,570
 U. S. Department of Labor                                                                                     235,383
 U. S. Department of the Navy                                                                                 2,685,911
 U. S. Department of State                                                                                      68,892
 U. S. Department of Transportation                                                                            985,336
 U. S. Department of the Treasury                                                                              593,196
 U. S. Department of Veterans Affairs                                                                         1,905,472
 Other agencies 1                                                                                             1,097,376
 Total - all agencies                                                                                     $ 27,589,634




1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.


20                                                                                 Prepared by KPMG LLP, for the
                                                             U.S. Department of Labor—Office of Inspector General
                                                                                 Report Number: 22-09-001-04-431
                                                                                                    Special Report Relating to the
                                                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                                          SECTION 2B
                                         U.S. Department of Labor
                                   Employment Standards Administration
                         Federal Employees’ Compensation Act Special Benefit Fund
                                                  Schedule of Net Intra-Governmental
                                                   Accounts Receivable by Agency
                                                      As of September 30, 2008
                                                                    (dollars in thousands)


                                                                                          Amounts                                 Net Intra-
                                                                 Amounts                 Expended                   Credits     Governmental
                                                                Billed Not              Not Yet Billed             Due from       Accounts
 AGENCY                                                         Yet Paid (1)                       (2)             Public (3)   Receivable (4)
 Agency for International
 Development                                                          $ 6,545                     $ 1,106             $ (34)          $ 7,617
 Environmental Protection Agency                                            8,559                          1,398         (43)            9,914
 General Services Administration                                          29,876                           4,845        (150)           34,571
 National Aeronautics and Space
 Administration                                                           13,604                           2,228         (69)           15,763
 National Science Foundation                                                  255                            45           (1)              299
 Nuclear Regulatory Commission                                              1,468                           250           (8)            1,710
 Office of Personnel Management                                             3,978                           631          (20)            4,589
 U.S. Postal Service                                                  (34,043)                      315,982           (9,767)          272,172
 Small Business Administration                                              5,168                           864          (27)            6,005
 Social Security Administration                                           49,946                           8,061        (249)           57,758
 Tennessee Valley Authority                                                 7,897                     17,952            (555)           25,294
 U. S. Department of Agriculture                                       143,401                          23,408          (724)          166,085
 U. S. Department of the Air Force                                     261,018                          41,476        (1,282)          301,212
 U. S. Department of the Army                                          280,998                          45,420        (1,404)          325,014
 U. S. Department of Commerce                                             29,213                           5,112        (158)           34,167
 U. S. Department of Defense –
 other                                                                 175,653                        32,985          (1,020)          207,618
 U. S. Department of Education                                              2,995                           497          (15)            3,477
 U. S. Department of Energy                                               16,991                           2,906         (90)           19,807

                                                                                                                                    (continued)
1 Amount billed through June 30, 2008 (including prior years) but not yet paid as of September 30, 2008.
2 Amounts paid and accrued but not yet billed for the period July 1, 2008 through September 30, 2008.
3 Allocation of credits due from the public through September 30, 2008.
4 Total amount due to the fund for each agency as of September 30, 2008.




Prepared by KPMG LLP, for the                                                                                                                21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                                        SECTION 2B
                                         U.S. Department of Labor
                                   Employment Standards Administration
                         Federal Employees’ Compensation Act Special Benefit Fund
                                                  Schedule of Net Intra-Governmental
                                                   Accounts Receivable by Agency
                                                      As of September 30, 2008

                                                                      (dollars in thousands)


                                                                                                Amounts                            Net Intra-
                                                                       Amounts                  Expended             Credits     Governmental
                                                                       Billed Not                Not Yet            Due from       Accounts
 AGENCY                                                               Yet Paid (1)              Billed (2)          Public (3)   Receivable (4)
 U. S. Department of Health and
 Human Services                                                           $ 50,004                   $ 8,254          $ (255)         $ 58,003
 U. S. Department of Homeland
 Security                                                                    318,959                       48,710      (1,506)         366,163
 U. S. Department of Housing and
 Urban Development                                                             16,006                       2,382         (74)           18,314
 U. S. Department of the Interior                                            120,127                       18,597        (575)         138,149
 U. S. Department of Justice                                                 195,732                       31,883        (985)         226,630
 U. S. Department of Labor                                                     45,096                       7,892        (253)           52,735
 U. S. Department of the Navy                                                486,051                       77,646      (2,400)         561,297
 U. S. Department of State                                                     15,227                       2,463         (76)           17,614
 U. S. Department of Transportation                                          191,484                       32,125        (993)         222,616
 U. S. Department of the Treasury                                            105,856                       16,713        (517)         122,052
 U. S. Department of Veterans Affairs                                        340,040                       56,254      (1,739)         394,555
 Other agencies                                                                87,784                      17,158        (527)         104,415
 Total - all agencies                                                 $ 2,975,888               $ 825,243           $ (25,516)     $ 3,775,615


1 Amount billed through June 30, 2008 (including prior years) but not yet paid as of September 30, 2008.
2 Amounts paid and accrued but not yet billed for the period July 1, 2008 through September 30, 2008.
3 Allocation of credits due from public through September 30, 2008.
4 Total amount due to the fund for each agency as of September 30, 2008.




22                                                                                                    Prepared by KPMG LLP, for the
                                                                                U.S. Department of Labor—Office of Inspector General
                                                                                                    Report Number: 22-09-001-04-431
                                                                   Special Report Relating to the
                                         Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                                U.S. Department of Labor
                          Employment Standards Administration
                Federal Employees’ Compensation Act Special Benefit Fund
                             Schedule of Benefit Expense by Agency
                                   As of September 30, 2008

                                        (dollars in thousands)

                                                        Benefits
                                                       Paid and
                                                       Change in         Change in        Total
                                                        Accrued          Actuarial       Benefit
AGENCY                                                  Benefits          Liability     Expense

Agency for International Development                      $ 3,396            $ (391)        $ 3,005
Environmental Protection Agency                                  4,513         4,829          9,342
General Services Administration                             14,816            (1,057)        13,759
National Aeronautics and Space Administration                    6,856           (83)         6,773
National Science Foundation                                       131             16            147
Nuclear Regulatory Commission                                     755            226            981
Office of Personnel Management                                   2,216         1,120          3,336
United States Postal Service                             1,001,131           620,392      1,621,523
Small Business Administration                                    2,553           740          3,293
Social Security Administration                              25,872            25,951         51,823
Tennessee Valley Authority                                  55,325            (5,597)        49,728
U. S. Department of Agriculture                             73,224            56,731        129,955
U. S. Department of the Air Force                          131,175            14,291        145,466
U. S. Department of the Army                               140,861             2,385        143,246
U. S. Department of Commerce                                15,929             5,164         21,093
U. S. Department of Defense – other                        101,450            23,842        125,292
U. S. Department of Education                                    1,544           368          1,912
U. S. Department of Energy                                       9,385          (497)         8,888


                                                                                        (continued)
Prepared by KPMG LLP, for the                                                                      23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
   Special Report Relating to the
   Federal Employees’ Compensation Act Special Benefit Fund




                                                                SECTION 2B
                                        U.S. Department of Labor
                                  Employment Standards Administration
                        Federal Employees’ Compensation Act Special Benefit Fund
                                         Schedule of Benefit Expense by Agency
                                               As of September 30, 2008

                                                             (dollars in thousands)

                                                                                        Benefits
                                                                                       Paid and
                                                                                       Change in             Change in            Total
                                                                                        Accrued              Actuarial           Benefit
AGENCY                                                                                  Benefits              Liability         Expense
U. S. Department of Health and Human Services                                              $ 25,822             $ 6,742          $ 32,564
U.S. Department of Homeland Security                                                         160,695             111,783           272,478
U. S. Department of Housing and Urban Development                                                7,583            $2,750            10,333
U. S. Department of the Interior                                                               60,217             33,057            93,274
U. S. Department of Justice                                                                  102,131              90,090           192,221
U. S. Department of Labor                                                                      25,184             (2,536)           22,648
U. S. Department of the Navy                                                                 219,285              (8,163)          211,122
U. S. Department of State                                                                        8,100               814             8,914
U. S. Department of Transportation                                                             98,999             35,871           134,870
U. S. Department of the Treasury                                                               53,465             20,158            73,623
U. S. Department of Veterans Affairs                                                         177,894              78,908           256,802
Other agencies (1)                                                                           111,909             165,668           277,577
Total - all agencies                                                                  $ 2,642,416            $ 1,283,572    $    3,925,988


   1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.




   24                                                                                        Prepared by KPMG LLP, for the
                                                                       U.S. Department of Labor—Office of Inspector General
                                                                                           Report Number: 22-09-001-04-431
                                                                      Special Report Relating to the
                                            Federal Employees’ Compensation Act Special Benefit Fund

                                                SECTION 2C

                                Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    Agreed-Upon Procedures Performed                      Results of Procedures

    1) Calculated the actuarial liability, by             The actuarial liability as of September 30,
       agency, as of September 30, 2008,                  2008, calculated using KPMG’s Loss
       using KPMG’s Loss Development                      Development       actuarial     model    is
       actuarial model1.                                  approximately $26.6 billion.

    2) Recalculated the actuarial liability, by No exceptions were found as a result of
       agency as of September 30, 2008, applying this procedure.
       using DOL’s Loss Development
       actuarial model2.

    3) Compared the interest rate and No exceptions were found as a result of
       inflation    (COLA,       CPI-Med) applying this procedure.
       assumptions used by the DOL Loss
       Development model as of September
       30, 2008, to the interest rate and
       inflation    (COLA,       CPI-Med)
       assumptions used by KPMG’s Loss
       Development model as of September
       30, 2008.

    4) Compared DOL’s actuarial liability as No exceptions were found as a result of
       of September 30, 2008, using DOL’s applying this procedure.
       Loss Development actuarial model to
       KPMG’s calculation of the actuarial
       liability as of September 30, 2008,
       using DOL’s Loss Development
       actuarial model.



1
  KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements
its methodology with the number of workers related to each agency in injury years 2003 through 2008.
2
  The DOL, model uses a Paid Loss Development Method by agency, by defined agency groups, and in total using
inflation rate assumptions on both past and future indemnity and medical benefits to adjust past data and project
forward.
Prepared by KPMG LLP, for the                                                                                  25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed               Results of Procedures

5) Compared DOL’s results for the 2008         The DOL results for the 2008 fiscal year
   fiscal year end actuarial liability using   end actuarial liability using DOL’s Loss
   DOL’s Loss Development actuarial            Development       actuarial   model      is
   model to KPMG’s results for the 2008        approximately one billion dollars (3.8%)
   fiscal year end actuarial liability using   greater than the KPMG results for the 2008
   KPMG’s Loss Development actuarial           fiscal year end actuarial liability using
   model.                                      KPMG’s Loss Development actuarial
                                               model.

6) Compared the average interest and           The average Discount Interest rate used in
   average inflation rate (COLA and CPI-       the DOL Loss Development Actuarial
   Med) assumptions used by the DOL            model decreased from 5.06% to 4.73%
   Loss Development actuarial model as         from September 30, 2007, to September
   of September 30, 2007, to the               30, 2008.
   average interest and average inflation
   rate    (COLA        and    CPI-Med)        The average COLA rate used in the DOL
   assumptions used by the DOL Loss            Loss    Development  Actuarial   model
   Development actuarial model as of           increased from 2.42% to 2.48% from
   September 30, 2008.                         September 30, 2007 to September 30,
                                               2008.

                                               The average CPI-med rate used in the
                                               DOL Loss Development Actuarial model
                                               decreased from 3.94% to 3.93% from
                                               September 30, 2007 to September 30,
                                               2008.




26                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

 Agreed-Upon Procedures Performed               Results of Procedures

 7) Calculated the percentage change in         The actuarial liability increased in the
    the actuarial liability by agency and in    aggregate from approximately $26.3 billion
    the aggregate from September 30,            as   of   September      30,   2007,     to
    2007, to September 30, 2008, based          approximately $27.6 billion (4.9%) as of
    on the DOL Loss Development                 September 30, 2008.
    actuarial model, identified agencies
    whose actuarial liability changed by        The following agencies had a change in
    more than 10 percent during fiscal          actuarial liability from September 30, 2007,
    year 2008, and for such agencies,           to September 30, 2008, of greater than
    calculated the percentage change in         10%:
    benefit payments for the year ended
    September 30, 2007, to September                              Percentage            Percentage
    30, 2008.                                          Agency      change in          change in benefit
                                                                actuarial liability      payments
                                                       EPA           12.1%                  4.7%
                                                       SMI           14.4%                  5.9%
                                                       OPC           17.1%                 (4.8)%




 8) Compared the interest rate (used for No exceptions were found as a result of
    discounting the future liability to the applying this procedure.
    present value) and inflation rates
    (COLA and CPI-Med) used by the
    DOL Loss Development actuarial
    model as of September 30, 2008, to
    the Fiscal Year 2008 Mid-Session
    Review prepared by OMB from which
    they are derived.




Prepared by KPMG LLP, for the                                                                             27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed              Results of Procedures

9) Compared the actuarial liability by No exceptions were found as a result of
   agency,    as    reported    in    the applying this procedure.
   Memorandum to the CFOs of
   Executive Departments issued by
   DOL’s Chief Financial Officer, for the
   2008 fiscal year end, to the liability
   calculated by the DOL Loss
   Development model and reported on
   the Projected Liability Reports as of
   September 30, 2008.

10) Compared both the fiscal year 2008 No exceptions were found as a result of
    benefit payments by agency and the applying this procedure.
    aggregate fiscal years 2003-2008
    benefit payments used by the DOL
    loss Development actuarial model
    with the amount of benefit payments
    reported in the Summary Chargeback
    Billing Report which reflects benefit
    paid on behalf of each agency.

11) Compared the agency groupings used        We found no changes in the agency
    in the DOL Loss Development               groupings used in the DOL Loss
    actuarial model as of September 30,       Development actuarial model as of
    2008, with the agency groupings used      September 30, 2008, compared to the
    in the DOL Loss Development               agency groupings used in the DOL Loss
    actuarial model as of September 30,       Development actuarial model as of
    2007, and determined if there were        September 30, 2007.
    any changes.




28                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

 Agreed-Upon Procedures Performed               Results of Procedures

 12) Compared the fiscal year 2008 benefit No agencies were identified as a result of
     payments predicted by the 2007 DOL applying this procedure.
     Loss Development actuarial model to
     the actual fiscal year 2008 benefit
     payments from the DOL Summary
     Chargeback Billing Report and
     identified agencies where the DOL
     Loss Development actuarial model
     computed benefit payments varied by
     more than 20 percent and $2 million
     from actual benefit payments made
     during fiscal year 2008 from the
     Summary Chargeback Billing Report.




Prepared by KPMG LLP, for the                                                            29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                             Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                Results of Procedures

    13) Compared the net effective rates            The net effective rate (interest minus
        (interest minus inflation rates) for        inflation rate1) for compensation of 2.25%
        compensation and medical utilized in        used by the DOL Loss Development
        the Loss Development actuarial model        actuarial model as of September 30, 2008,
        as of September 30, 2008, by the            was less than the net effective rates for
        Postal Service, OPM, SSA, Energy            compensation utilized in the Loss
        Employees’        Occupation      Illness   Development actuarial model as of
        Compensation Program, and the               September 30, 2008, by Postal Service
        Black Lung Disability Trust Fund to         (2.6%), OPM (2.75%), SSA (2.91%), and
        the net effective rates (interest minus     Black Lung Disability Trust Fund (3.12%).
        inflation rates) for compensation and       The Energy Employees’ Occupational
        medical utilized by the DOL Loss            Illness Compensation Program does not
        Development actuarial model as of           use an inflation rate for compensation.
        September 30, 2008.
                                                    The net effective rate (interest rate minus
                                                    inflation rate2) for medical of 0.8% used by
                                                    the DOL Loss Development actuarial
                                                    model as of September 30, 2008, was less
                                                    than the net effective rates for medical
                                                    utilized in the Loss Development actuarial
                                                    model as of September 30, 2008, by
                                                    Postal Service (0.4%) the Energy
                                                    Employees           Occupational      Illness
                                                    Compensation Program (-1.23%) and the
                                                    Black Lung Disability Trust Fund (1.63%).
                                                    The net effective rates for medical used by
                                                    OPM and SSA were not available.




1
 COLA
2
 CPI-Med
30                                                                Prepared by KPMG LLP, for the
                                            U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-09-001-04-431
                                                                 Special Report Relating to the
                                       Federal Employees’ Compensation Act Special Benefit Fund

                                           SECTION 2C

                             Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                    Results of Procedures

14) Confirmed      accounts     receivable          Confirmations were received from all
    balances due as of June 30, 2008,               agencies that were sent a confirmation
    from the Liability for Current Federal          request. The confirmed account receivable
    Employees’       Compensation      Act          balances as of June 30, 2008, agreed with
    Benefits prepared by the DOL-OCFO               the account receivable balances as of
    and posted on the DOL website3 for all          June 30, 2008, posted on the DOL
    CFO Act agencies (except DOL) and               website5 except for the following
    the U.S. Postal Service and compared            agencies:
    confirmed account receivable balances
                                                                                  Confirmed
    as of June 30, 2008, to the amounts               Agency   Website Amount
                                                                                   Amount
                                                                                               Difference
                                 4
    posted on the DOL website .                      DOT             $ 370,067    $ 350,746     $ 19,321
                                                     OPM              3,977,945    3,976,046       1,899




3
  http://www.dol.gov/ocfo/media/reports/FECA_liability_2008_3q.pdf
4
  http://www.dol.gov/ocfo/media/reports/FECA_liability_2008_3q.pdf
5
  http://www.dol.gov/ocfo/media/reports/FECA_liability_2008_3q.pdf
Prepared by KPMG LLP, for the                                                                           31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                          Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed               Results of Procedures

15) Compared the net intra-governmental        The variance from comparing the net intra-
    accounts receivable balances reported      governmental         accounts  receivable
    by the OCFO on the Liability for           balances reported by the OCFO on the
    Current      Federal      Employees’       Liability for Current Federal Employees’
    Compensation Act Benefits report as of     Compensation Act Benefits report as of
    September 30, 2007, to the net intra-      September 30, 2007 to the net intra-
    governmental accounts receivable           governmental         accounts  receivable
    balances by Federal agency reported        balances by Federal agency reported by
    by the OCFO on the Liability for           the OCFO on the Liability for Current
    Current      Federal      Employees’       Federal Employees’ Compensation Act
    Compensation Act Benefits as of            Benefits as of September 30, 2008, are
    September 30, 2008.                        identified in Exhibit A.

     Recalculated the September 30, 2008,      The recalculated net intra-governmental
     Net     Intra-governmental    Accounts    accounts receivable balances agreed to
     Receivable balances for each agency       the balances reported by the OCFO in the
     by subtracting the cash collections       Liability for Current Federal Employee’s
     (reported by the OCFO on the SF-          Compensation Act Benefits as of
     224s) and adding the FY 2008 bills        September 30, 2008, for each agency after
     (sent to Federal agencies) to the         considering the 4th quarter accruals except
     September 30, 2007, ending balance        the following:
     and    compared      the   recalculated
     balance to the balance reported by the                   OCFO         Recalculated
                                                Agency                                     Difference
                                                             Amount          Amount
     OCFO in the Liability for Current
                                                TREAS      $ 122,052,925   $ 122,049,303      $ 3,622
     Federal Employees’ Compensation Act
                                                EDU           3,476,854        3,438,891       37,963
     Benefits as of September 30, 2008.
                                                DOD         207,618,635      207,595,311       23,324
                                                Other       104,415,234      104,357,789       57,445




32                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                Results of Procedures

16) Compared the Summary Chargeback             Variances      between     the    Summary
    Billing Report for the period, July 1,      Chargeback Billing Report for the period
    2007, through June 30, 2008, to the         July 1, 2007, and June 30, 2008, and the
    bills sent to Federal entities dated July   bills sent to the Federal agencies were
    31, 2008.                                   noted for the following agencies:

                                                                           Bill    Report
                                                       Agency             Amount   Amount     Difference
                                                 Dept of Agriculture –
                                                 New Enrollees                $-   $ 30,190   ($30,190)
                                                 Dept of the Interior –
                                                 New Enrollees                 -    24,298    ($24,298)




17) Compared the Allocation of Accrued No exceptions were found as a result of
    Benefits as of September 30, 2008, applying this procedure.
    recorded on the OCFO Liability for
    Current     Federal       Employees’
    Compensation Act Benefits report as
    of September 30, 2008, to the accrual
    calculation worksheet prepared by
    DOL.

18) Compared the FY 2008 4th quarter            The FY 2008 4th quarter accounts
    accounts receivable estimate prepared       receivable estimate prepared by the OCFO
    by the OCFO and reported on the 4th         varied from the actual payments reported
    Quarter FECA Liability Report to the        on the Summary Chargeback Billing
    FY 2008 4th quarter benefit payments        Report by $24 thousand.
    reported on the Summary Chargeback
    Billing Report.




Prepared by KPMG LLP, for the                                                                         33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund
                                                                                  EXHIBIT A
                                                                    Results of Procedure 15

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


                                    (dollars in thousands)
                                                             Net Intra-
                                                          Governmental
                                                       Accounts Receivable
                                                          September 30
                    Agency                               2008         2007       Change
Agency for International Development                    $ 7,617      $ 8,463      $ (846)
Environmental Protection Agency                            9,914         9,102        812
General Services Administration                           34,571        33,998        573
National Aeronautics and Space
Administration                                           15,763       15,553           210
National Science Foundation                                 299          292              7
Nuclear Regulatory Commission                             1,710        1,659             51
Office of Personnel Management                            4,589        4,022           567
U.S. Postal Service                                     272,172      261,962        10,210
Small Business Administration                             6,005        5,718           287
Social Security Administration                           57,758       54,868         2,890
Tennessee Valley Authority                               25,294       82,224      (56,930)
U.S. Department of Agriculture                          166,085      161,620         4,465
U.S. Department of the Air Force                        301,212      295,089         6,123
U.S. Department of the Army                             325,014      325,113           (99)
U.S. Department of Commerce                              34,167       28,307         5,860
U.S. Department of Defense - other                      207,618      207,418           200
U.S. Department of Education                              3,477        9,209       (5,732)
U.S. Department of Energy                                19,807       20,553         (746)
U.S. Department of Health and Human
Services                                                 58,003       56,439         1,564
U.S. Department of Homeland Security                    366,163      361,483         4,680
                                                                                 (continued)

Prepared by KPMG LLP, for the                                                            35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund
                                                                                     EXHIBIT A
                                                                       Results of Procedure 15

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                   (dollars in thousands)

                                                                 Net Intra-
                                                               Governmental
                                                            Accounts Receivable
                                                               September 30
                      Agency                                 2008        2007        Change
U.S. Department of Housing and Urban
Development                                                 $ 18,314    $ 18,367        $ (53)
U.S. Department of Interior                                  138,149     136,654          1,495
U.S. Department of Justice                                   226,630     215,027        11,603
U.S. Department of Labor                                      52,735      54,831        (2,096)
U.S. Department of Navy                                      561,297     559,940          1,357
U.S. Department of State                                      17,614      17,637            (23)
U.S. Department of Transportation                            222,616     213,973          8,643
U.S. Department of the Treasury                              122,052     119,377          2,675
U.S. Department of Veterans Affairs                          394,555     377,655        16,900




36                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


 Agreed-Upon Procedures Performed             Results of Procedures

 19) Compared       benefit    payments No exceptions were found as a result of
     recorded in the Integrated Federal applying this procedure.
     Employees Compensation System
     (iFECS) and Central Bill Pay (CBP)
     databases to the U.S. Department of
     the Treasury’s SF-224 as of March
     31, 2008, and September 30, 2008.

 20) Obtained the reconciliation prepared A) The benefit expenses in the Chargeback
     by      the    Office   of    Workers’     Billings Reports reported in the
     Compensation Programs between              reconciliation for the fiscal year ended
     the benefit payments reported in the       September 30, 2008, were $8 thousand
     Chargeback Billings Reports for the        higher than the actual Chargeback
     fiscal year ending September 30,           Billings Reports.
     2008, and the benefit payments
     reported in the iFECS and CBP B) The benefit payments from iFECS and
     databases for the fiscal year ending       the CBP databases reported in the
     September 30, 2008, and performed          reconciliation for the fiscal year ended
     the following procedures:                  September 30 2008, were $329
                                                thousand higher than the actual iFECS
  A) Compared the benefit expenses in           and the CBP databases.
       the Chargeback Billings Reports
       reported in the reconciliation to the C) The Office of Workers’ Compensation
       actual      Chargeback         Billings  Programs’ reconciliation between the
       Reports.                                 benefit payments reported in the
  B) Compared the Benefit payments              Chargeback Billings Reports for the
       from iFECS and the CBP                   fiscal year ending September 30, 2008,
       databases      reported     in      the  and the benefit payments reported in
       reconciliation to the actual iFECS       the iFECS and CBP databases for the
       and the CBP databases.                   fiscal year ending September 30, 2008,
  C) Identified       any      unreconciled     had unreconciled differences of $2
       differences.                             thousand.


Prepared by KPMG LLP, for the                                                            37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed            Results of Procedures

21) Compared       compensation     and     The following agencies had increases
    medical bill payments by agency for     (decreases) over 10% in compensation and
    the fiscal year ending September        medical bill payments for the year ended
    30, 2008, from the Summary              September 30, 2008, compared to the year
    Chargeback Billing Report prepared      ended September 30, 2007:
    by DOL, to the compensation and                     Agency      Variance
    medical bill payments by agency
    made for the fiscal year ended                  •      DOS       11%
    September 30, 2007, from the                    •      SBA       11%
    Summary Chargeback Billing Report               •      OPM       29%
    prepared by DOL, and identified any             •      EOP       (23)%
    variances over 10 percent.                      •      PCE        11%
                                            Variances for the remaining agencies were
                                            less than 10%

22) For a selection of 119 compensation No exceptions were found as a result of
    payments      for   initially eligible applying this procedure.
    claimants, performed tests for
    existence     and     accuracy      by
    comparing benefit data from the
    applicable Forms CA-1 Federal
    Notice of Traumatic Injury and Claim
    for          Continuation           of
    Pay/Compensation,         and   CA-2
    Notice of Occupational Disease and
    Claim for Compensation to the
    payment amounts in iFECS.




38                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

 Agreed-Upon Procedures Performed             Results of Procedures

 23) For     a    selection      of   119 No exceptions were found as a result of
     compensation         payments     for applying this procedure.
     continuing    eligibility  and    file
     maintenance, performed tests of
     existence    and       accuracy    by
     comparing benefit data from
     applicable Forms CA-7 Claim for
     Compensation,        and     CA-1032
     Request     for     information    on
     Earnings,        Dual        Benefits,
     Dependents and Third Party
     Settlements to the payment
     amounts in iFECS.

 24) For a selection of 133 medical No exceptions were found as a result of
     payments, performed tests for applying this procedure.
     existence   and   accuracy     by
     comparing the medical bill to the
     payment amount in CBP.

 25) Calculated the change in the              The actuarial liability increased by
     actuarial liability reported on the      approximately    $1.3   billion  on   the
     September        30,   2008,    and      compilation reports prepared by DOL from
     September 30, 2007, compilation          September 30, 2007, to September 30,
     reports prepared by DOL.                 2008.




Prepared by KPMG LLP, for the                                                            39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed            Results of Procedures

26) Calculated the annual projected         The calculated annual projected benefit
    benefit payments for fiscal year        payments based on the March 31, 2008,
    2008 using the following two step       iFECS     and   CBP      databases    were
    process:                                approximately $90 million (3.47%) less than
                                            the actual 12 month total benefit payments
     (a) Determined the average amount as of September 30, 2008, calculated from
     per roll during the period of October the Summary Chargeback Billing Reports.
     1, 2007, to March 31, 2008, by
     dividing the total medical and
     compensation benefit payments
     from the iFECS and CBP databases
     with the number of rolls in the period
     from October 1, 2007, to March 31,
     2008; and

     (b) Multiplied the average amount
     per roll determined in step 26 (a)
     above by the number of rolls
     scheduled for fiscal year 2008.

     Compared this amount to the actual
     12-month total benefit payments as
     of September 30, 2008, calculated
     from the Summary Chargeback
     Billing Reports.

27) Compared the fiscal year 2008 4th No exceptions were found as a result of
    quarter benefit expense estimate applying this procedure.
    calculated by the OCFO on the
    Liability  for    Current     Federal
    Employees      Compensation       Act
    Benefits report to the actual benefits
    recorded in iFECS and CBP.


40                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-09-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by KPMG LLP, for the                                                            41
U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                                               Prepared by KPMG, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-09-001-04-431
                                                             Special Reports Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

                ACS                    Affiliated Computer Services
                AODF                   All Other Defense
                AUP                    Agreed Upon Procedures
                BLS                    Bureau of Labor Statistics
                CBP                    Central Bill Processing System
                CFO                    Chief Financial Officers’ Act
                COLA                   Cost of Living Allowance
                CPI-Med                Consumer Price Index for Medical
                DHS                    U.S. Department of Homeland Security
                DOD                    U.S. Department of Defense
                DOI                    U.S. Department of Interior
                DOJ                    U.S. Department of Justice
                DOL                    U.S. Department of Labor
                DOT                    U.S. Department of Transportation
                EDU                    U.S. Department of Education
                EPA                    Environmental Protection Agency
                ESA                    Employment Standards Administration
                FECA                   Federal Employees' Compensation Act
                HUD                    Department of Housing and Urban Development
                iFECS                  Integrated Federal Employees’ Compensation
                                       System
                LBP                    Liability to Benefits Paid
                NASA                   National Aeronautics and Space Administration
                NCS                    Corp. for National and Community Service
                NRC                    Nuclear Regulatory Commission
                NSF                    National Science Foundation
                OCFO                   Office of the Chief Financial Officer
                OMB                    Office of Management and Budget
                OPC                    Office of Peace Corps
                OPM                    Office of Personnel Management
                OWCP                   Office of Workers' Compensation Programs
                PCE                    Peace Corp Enrollees
                SBA                    Small Business Administration
                                                                             (continued)

Prepared by KPMG, for the                                                                43
U.S. Department of Labor—Office of Inspector General
Report No: 22-09-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

               SFFAS                  Statement of Federal Financial Accounting
                                      Standards
               SMI                    Smithsonian Institution
               SSA                    Social Security Administration
               USAID                  U.S. Agency for International Development
               USDA                   Department of Agriculture
               USPS                   U.S. Postal Service
               TREAS                  U.S. Department of the Treasury




44                                                               Prepared by KPMG, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-09-001-04-431
